                              CLOSEOUT FOR M91010001

        On January 3, 1991, Dr. ,                   a program manager in the office
                           in the Directorate for Computer and Information Science and
                              that the complainant, Dr. ,
                                                                                       -
                                                                          alleged that ~ r . -
               the subject, had plagiarized material from his successful 1989 proposal 0
                                proposal s u b m i s s i o n . The subject's proposal was
                                cycle as the complainant's 1990 renewal proposal
The complainant informed the program manager that his allegation was being investigated by
the institution and that the subject had withdrawn her proposal from consideration. In January
1991, the subject and the complainant were both faculty members in the Department of
Computer Science and Engineering at the University                                        J    (the
institution).                                                         I



         OIG addressed three issues in this case: the allegation of plagiarism, an allegation of
retaliation against a good-faith whistleblower, and NSF's delayed termination of the
complainant's 1990 funded renewal proposal.

~ A L I A T I O NAGAINST A GOOD-FAITH wEISr"r'U)WER

        In an extended series of telephone calls the complainant provided OIG with further
information on the allegation of plagiarism. After reviewing this material OIG contacted the
institution for further details. The Associate Director in the Office of Sponsored Programs at
the institution infonned OIG that the complainant's allegation had been reviewed by the
Professional Conduct Committee and the Faculty Senate Grievance Committee and that both
found that no misconduct had occurred. The Associate Director stated that the complainant was
no longer associated with the institution.

       The complainant supplied OIG with information about the circumstances surrounding his
dismissal and alleged that his termination was motivated by his allegation of plagiarism against
the subject. OIG brought this allegation to the attention of the institution and was provided with
documents showing that the complainant had been informed by letter that his contract would not
be renewed. This letter preceded his actions with regard to the allegation of misconduct. OIG
found that the institution's Grievance Committee's decision had addressed the complainant's
dismissal, not the allegation of plagiarism. The committee found that the complainaqt had been
given proper warnings and the procedures outlined in the Faculty Handbook had been-followed
and concluded that there was insufficient evidence to warrant a formal hearing.

       OIG could not fmd substance for an allegation of retaliation against a good-faith
whistleblower and did not pursue the matter further.




                                           Page 1 of 4


                                               71-01
                              CLOSEOUT FOR M91010001
DELAYED CLOSURE OF TBE COMPLAINANT'S 1990 FUNDED RENEWAL PROPOSAL

       OIG found that the complainant's 1990 renewal proposal had been funded. On his
departure the institution submitted a change of PI request to NSF. This request was denied
because the background and expertise of the substitutes were not appropriate. By a letter dated
August 1991, the institution returned the award to NSF. OIG found that, as of January 1992,
the grant had not been closed out by NSF. When informed, NSF staff stated that the oversight
was the result of rotator staff changes and promptly terminated the grant. The findings with
regard to the delayed recovery of funds and the allegation of retaliation were the subject of a
discussion in OIG Semiannual Report to Congress number 6.

ALLEGATION OF PLAGIARISM

        The complainant provided OIG with documentation he had received or created concerning
the allegation of plagiarism. OIG reviewed this material and requested further information from
the institution about their evaluations of this allegation. OIG found that after hearing the
complainant's allegation the University Ombudsman compared the complainant's 1989 proposal
with the subject's proposal, documented the similarities, and forwarded his tabular comparison
to the Dean of the College of Arts and Sciences. At the Dean's request the Department
Chairman looked into the allegation. He found that, at the former Chairman's suggestion, the
subject had obtained a copy of the complainant's 1989 proposal. The Chairman found that there
were similarities between the proposals and the subject had benefited from her review of the
complainant's 1989 proposal while preparing her own. However, he considered much of the
similar material to be a boilerplate description of the institution's and department's facilities,
faculty, and capabilities and that the remainder was so strictly dictated by the NSF brochure that
there was little latitude in the language that could be used. He concluded that the subject had
not committed academic dishonesty but a naive technical error. He noted that the subject had
voluntarily withdrawn her proposal from consideration at NSF. The subject subsequently
rewrote the proposal and received funding for her resubmitted proposal.

       The Dean reviewed and accepted the Chairman's findings and suggested that the
Chairman's memo detailing his findings be placed in the subject's personnel file. The memo
was placed in her file.

       The complainant disagreed with this finding and brought the allegation to the attention
of the institution's Professional Conduct Committee, the committee responsible for the
assessment of allegations of misconduct. This committee found that the subject had committed
an error in using material similar to the complainant's but noted that other sections of her
proposal were quite original. It concluded that her actions were insufficient to justify a charge
of professional misconduct and dismissed the case.



                                          Page 2 of 4
                              CLOSEOUT FOR M91010001
        OIG concluded that the institution had provided insufficient evidence to support its
conclusions and opened an investigation into the allegation. OIG reviewed the subject's and the
complainant's proposals and found that the subject's 1990 proposal contained 12 passages, of
varying length, that were identical or substantially similar to passages in the complainant's 1989
proposal. The same material was also found in the complainant's 1990 renewal. The subject's
proposal did not state that permission to use the material had been obtained from the complainant
and did not acknowledge the source of the material. OIG found that the material considered by
the Chairman to be boilerplate was a substantive part of the proposal and that the NSF brochure
did not stringently dictate the language to be used in the proposal. OIG contacted the subject
for further information.

        The subject responded that she had not obtained the complainant's permission to use
material from his proposal in her submission and she had not, but should have, acknowledged
his material. She said the department did not have a public boilerplate file available to the
faculty and that the NSF brochure did not strictly dictate the language to be used in the proposal.

       OIG concluded that the subject had committed plagiarism by using the words of the
complainant without his permission and without attribution in her 1990 proposal. Neither the
alleged boilerplate nature of the copied text nor the presence of original work in other areas of
her proposal were considered mitigating factors. OIG prepared an investigation report
recommending that the subject be found to have committed misconduct in science and made
several recommendations as to the actions the Foundation should take to protect its interests.
The draft report was forwarded to the subject for comment. OIG incorporated some minor
changes requested by the subject and forwarded the final report to the Deputy Director of NSF.

        The Foundation concluded that the subject had committed misconduct in science and, in
the settlement agreement, required that if the subject is a PI or co-PI on an NSF proposal
submission, for each proposal, the subject will certify that she has (a) reviewed her institution's
misconduct regulations, (b) that her proposal is free of any such misconduct, and (c) that her
proposal was reviewed by her Department Chairman. Her Department Chairman will, based
on his reading, certify that her proposal does not contain any plagiarized material. These actions
were consistent with OIG's recommendations.

       The agreement was signed by the subject and by the Deputy Director of NSF. This case
was closed.



                               L ~ ,
                               iulj 1 / 7 3

Staff Scientist, Oversight


                                              Page 3 of 4
                            CLOSEOUT FOR M91010001




Donald E. Buzzelli   ''
Deputy Assistant Lnspector General for          Assistant Inspector General for Oversight
Oversight



~ o n t ~ o m e rK.
                  y Fisher
Counsel to the Inspector General

cc:   Signatories
      Inspector General




                                         Page 4 of 4
                     NATIONAL SCIENCE FOUNDATION
                          WASHINGTON. D.C. 20550


                           October 15, 1993


    OFFICE OF THE
   DEPUTY DIRECTOR




Dear Dr.:-

                      -
Re: OIG Investigation of Alleged Scientific Misconduct in
Connection with Grant ~roposal-


As you are.aware, our Office of Inspector General prepared an
Investigative Report             in which it concluded that the
above-referenced National Science Foundation (NSF) proposal
contained text that you plagiarized from another NSF fknded
p r o p o s a l , submitted by ~r                  We agree with
the Inspector General's Report that your copying or paraphrasing
from D r . p r o p o s a l without his attribution or permission
constitutes misconduct in science, specifically plagiarism, under
NSFts regulation, 45 C.F.R. Part 689.
The Office of Inspector General's Investigative Report recommends
that NSF require future proposals from you to include
certifications from you and your Department chairman that the
proposals do not contain plagiarized materials. You agreed to
implement these sanctions in your August 18, 1993 letter to the
Office of Inspector General. Accordingly, I am enclosing a
Settlement Agreement for your signature that memorializes this
understanding. Please sign both copies of the Settlement
Agreement and return them to me for my signature, so that we both
may have an original for our files.
                                   Sincerely,


                                         \
                                   Mary E. Clutter
                                   Acting Deputy Director
Enclosures
-
                   NATIONAL S C I E N C E FOUNDATION
                        WASHINGTON. D.C. 20550

                        SETTLEMENT AGREEMENT
                               RECITALS



                                                             (m
 Engineering, National Science Foundation (NSF'), received a
 ~esearch~x~eriences   for Undergraduates (REU) proposal
           from the University
                             -                              -
  (Universit ) entitled
                 The proposal named two individuals as
 collaborators. One of these individuals, Dr.                  h
 Assistant Professor in the Department of
,-             was identified as the Principal Investigator (PI).
B. NSFrs Office of Inspector General (OIG) subsequently received
an allegation that the PI'S proposal contained sections which had




C.  After evaluating the allegation, the Dean of the College of
Arts and Sciences at the University concluded that the PI had
engaged in a technical error and placed a letter describing the
institution's evaluation and findings in her file.
 D. Following a request for an independent evaluation of the
 allegation, OIG prepared an investigative report (M91010001) on
 this allegation and concluded that the PI'S proposal contained
 text copied from the original author's funded 1989 proposal
 without attribution or the original author's permission. The PI
 acknowledges that she copied or closely paraphrased from Dr.
-proposal           without his permission or attribution.
E. The PI voluntarily withdrew her proposal from consideration
by NSF. The PI also joined with two other REU site grant PIS at
the Institution in providing a series of seminars entitled
"Ethical Issues in the Conduct of Research."
                               AGREEMENT
After careful evaluation, Dr. (          a       n     d NSF ag&e   to
settle this matter as follows:
1. If, prior to September, 1996,b Dr.
                                   - (                 is a
principal investigator or co-principal investigator on a proposal
submitted to the NSF for funding, she will obtain a signed
Assurance from her Department Chairman stating that, on the basis
of the Chairman's reading of the proposal, the proposal does not,
to the best of the Chairman's knowledge, contain any plagiarized
material. Concomitant with submission of the proposal, a copy of
the Chairman's Assurance shall be sent to the Assistant Inspector
General for Oversight in NSF1s OIG, to be placed in that Office's
file for this matter.
2.  If, prior to September, 1996, Dr.            is a principal
investigator or a co-principal investigator on a proposal
submitted to NSF for funding, Dr.            will certify in
writing that: (a) she has recentl-her            institution's .
guidelines on misconduct in science; (b) to the best of her
knowledge, her grant application is free of any such misconduct;
and (c) her grant application has been reviewed by the Department
Chairman as required in Paragraph 1. Concomitant with the
submission of the proposal, a copy of certification shall be sent
to the Assistant Inspector General for Oversight in NSF1s OIG, to
be placed in that Officers file for this matter.
3. The assurance and certification received by the OIG in
accordance with Paragraphs 1 & 2 above will remain in the OIG and
will not be further distributed within the NSF, nor made
available to reviewers of Dr. f u t u r e proposals to
the NSF.
4. The NSF will take no further action against the PI for her
actions in this matter.
5. This Agreement constitutes, the entire agreement between the
parties regarding the above-described matter. No modification to
this Agreement shall be valid unless written and executed by both
parties thereto.
6. This Agreement terminates and settles this matter, and no
party may bring legal action regarding this matter except
concerning breach of this Agreement.
7.  This Agreement will be null and void if it is not executed by
the Acting Deputy Director of NSF within ten ( 1 0 J calendar days
after the signing of this Agreement by the PI.

                                         g    hbben\k    1943
                                       Date

                                        I 7 /K&,-Lm-     1973
                                       Date

Dr. Frederick M. Bernthal
Deputy Director, NSF
                  CONFIDENTIAL !



                OIG Case Number M91010001




This document is lent to you FOR OFFICIAL USE ONLY. It remains the
property of the Office of Inspector General. It may not be reproduced. It
may be disclosed outside of NSF only by the Inspector General, pursuant to
the Freedom of Information and Privacy Acts, 5 U. S.C. $5 552, 552a.
                                                                          -
     REPORT OF ~ S T I G A T I O NINTO AN ALLEGATION.OF
         MISCONDUCT IN SCIENCE AND ENGINEERING
                                                                                        '




                                         SUMMARY

        The Office of Inspector General (OIG) has determined that Dr.                          (the
                     ) - 1
subject) of the University                               committed plagiarism in a grant proposal
she submitted to NSF. This conclusion is based on an investigation performed by OIG. OIG
recommends that NSF make a finding of plagiarism and that it take the following actions as a final
disposition in this case. First, until September 1996, when proposals are submitted by the subject
to NSF, she should simultaneously certification to OIG at NSF that, to the best of her knowledge,
they contain nothing which violates NSF's Misconduct in Science and Engineering Regulation (45
C.F.R. 5689), and second, the subject should send a letter of apology to the original author of the
plagiarized proposal. These actions should in no way adversely influence the processing, review,
or funding of proposals submitted by the subject in the future.


                                       BACKGROUND


November lq90, the Office of Cross-Disciplinary Activities in the Directorate for Computer &

                                     m
Information Science & Engineering (CISE) received a Research Ex~eriencesfor Underpraduates
(REV) Site proposal. ~ h.e "- ~ r- o ~ o & l               1-1"
                                                 was entitled

              an Assistant Professor in the                      Department at     m
                     " The proposal named the subject as the Principal ~nvestigator(PI) a n d m

university,-,                    as the co-PI.




subject. OIG was informed that the institution was evaluating the allegation. In January 1991, the
subject withdrew her proposal from consideration by NSF. OIG subsequently learned that the
institution's evaluation had not found suff~cientsubstance to the allegation to warrant a finding of
serious "academic dishonesty." A letter describing the evaluation and concluding that her technical
error was naive and unintentional was placed in the subject's personnel file at the institution. At
the original author's request the institution's Professional Conduct Committee (the Committee)
conducted an inquiry into the allegation. The Committee's inquiry.concluded that the subject's
error was not sufficient to formally charge her with professional misconduct. OIG subsequently
received a letter requesting an independent evaluation of the allegation.

                                              Page 2
THE INS'IITUTION'S EWALUATION OF THE ALLEGATION

        In October 1990, the original author of the plagiarized proposaI informed the institution's
Ombudsman, ,                    of the allegation of plagiarism and requested an investigation. One
month later the original author informed -~ean                of the College of Arts and Sciences, of
the allegation. In a statement to the ~rofessiondConduct Committee, ,                      chainhan
of the Department of Computer Science and Engineering, said that the Dean had requested that the
Chairman "investigate the allegation." The Chairman reported his fmdings of his inquiry in a
December 17, 1990 letter to the Dean (attached as Tab A).

       In that letter the Chairman stated that the subject had, at the previous Chairman's direction,
obtained the departmental copy of the original author's proposal, and that there were

       "substantial similarities in the section 'Research Environment' inboth proposals     .
       . . . It is my judgement that [the subject] had prepared her proposal with the benefit
       of reading [the original author's] proposal."

However the Chairman pointed out that except for one section the similar sections were "standard
descriptions of a boilerplate. " He said that he and other members of the department had, at various
times in their careers borrowed proposals from other colleagues and "adapted materials that are
non-intellectual and standard descriptions" into their proposals. He found that the one section he
did not consider "boilerplate", the description of the plan for student recruitment, was part of the
proposed work. He stated that that text was so stringently dictated by the NSF program
announcement that there was little latitude in the language that could be used in the proposal (see
text of letter attached as Tab A).

The Chairman concluded

       "that [the subject] has not committed a serious case of academic dishonesty.
       However, she has, unintentionally and out of naiveness, committed a technical error
       in following to [sic] closely the standardized materials in [the original author's]
       proposal. I recommend that a letter, pointing out her error, be placed in her file.
       m e subject] intends to voluntarily withdraw the proposal from NSF consideration
       based on my judgement that she made a technical error."

        The Ombudsman forwarded a copy of his notes from his comparison of the two proposals
to the Dean's office "some time late last Fall [1990]." These notes show that the Ombudsman had
identified several similar sections in the two proposals. He did not draw any conclusions from his
comparison.




                                               Page 3
       In a December 215 1990 memo to the Chairman (attached as Tab B) the Dean stated that
he accepted the Chairman's conclusions that

       "[The subject] committed a 'technical' error in using some of the language contained
       in [the original author's] proposal from the standard sections referring to factual
       information about the Department of Computer Science and Engineering. I suggest
       that your letter to me concerning this allegation be placed in [the subject's] frle."

       The Dean's letter addressed the "boilerplate" material: no mention was made of the other
material in the subject's proposal that the Chairman had considered part of the proposed work.


THE PROFESSIONAL CONDUCT COMMIlTEE DECISION

       A new complaint regarding this matter was brought to the attention of the institution's
Professional Conduct Committee (the Committee) on February 27, 1991.

       The Committee is empowered to receive allegations of misconduct, to perform the
appropriate inquiries and investigations, and to recommend sanctions. It is not empowered to
impose sanctions. The "Statement of Charges of Professional Misconduct" to the Committee
alleged that

       [The subject] did willfully and intentionally plagiarize a grant proposal that [was]
       submitted last October to the National Science Foundation (NSF) . . . ."

        A 5-member subcommittee of the Committee performed an inquiry into the allegation in a
series of meetings in late March and early April 1991. In an April 10, 1991 letter (attached as Tab
C) to the original author the Committee Chairwoman stated

       ". . . we conclude that [the subject] committed an error in describing the faculty and
       students similarly to the descriptions in your proposal. However, the Project
       Management and Follow-up sections were quite different in the two proposals. "

       "We note that [the Chairman's] conclusions were that [the subject's] actions showed
       questionable judgment but were unintentional and that a letter to that effect was
       placed in her file. We also note that the appropriate administrators were made
       aware of her actions.

       After comparing the two documents, we concur with [the Chairman and the Dean], that the
       case is not sufficient to justify a formal statement of charges of professional misconduct."




                                              Page 4
                                                                                                 -
           EVALUATION BY THE OFFICE OF INSPECTOR GENERAL
       Subsequent to the Committee decision OIG received a letter requesting that OIG
"independently investigate [the] charges of professional misconduct against [the subject] . . . ."

        OIG collected and reviewed information from the original author and the institution, and
compared the proposals by the original author and the subject. In October 1989, the original author
submitted, and subsequently received funding from NSF for, proposal-(original
author's 1989 proposal). In October 1990, the original author and the subject sepmtely submitted
proposals requesting REU funds for projects in computer science. The subject's proposal
( s u b j e c t ' s 1990 roposal) was signed by institutional officials two days before the original
author's proposal                  (original author's 1990 proposal). The subject's 1990 proposal
 was withdrawn during the institution's inquiry into the allegation of plagiarism; the original author's
 1990 proposal was funded by NSF.

       OIG found 12 passages (of varying length) in the subject's 1990 proposal that were identical
or substantially similar to 12 passages in the original author's 1989 proposal. 'This text was also
found in the original author's 1990 proposal. The subject's 1990 proposal did not contain an
acknowledgment to the original author or cite his 1989 proposal as the source for this material.
Attached (Tab D) to this report is a copy of the body of the subject's 1990 proposal and the original
author's 1989 proposal. The passages in the subject's 1990 proposal containing the identical, or
substantially similar text, are sequentially numbered. The same number is placed next to the
corresponding material in the original author's 1989 proposal.

        According to the NSF brochure for the REU program, REU proposals should be a
description of 1) the nature of the student activities, 2) the research environment, 3), the student
participants (recruitment and selection), 4) the budget, and 5) the PI'S biographical sketch and list
of individual support. OIG's comparison of the two proposals found that the student activity
described by each proposal, as well as the budget and supporting biographical materials on the PIS,
was unique to each and was not relevant to this investigation. The Research Environment section
of the subject's pmposal included three subsections entitled "Facilities and Equipment," "Faculty,"
and "Students." With the exception of seven sentences, all of the text in these subsections,
amounting to about two and a half pages of text (10 of the 12 passages of identical or substantially
similar text), was copied from the original author's 1989 proposal.

         These 10 passages are the text that was considered by the institution to be "boilerplate".
That is, they contain what was considered to be standard descriptions of the institution, the
department, the computing facilities, and the student body. However, OIG found that the NSF
brochure states that the proposal should "reflect the unique combination of the proposing
institution's interests and capabilities." Thus, competing PIS must carefully word a description of
these capabilities to persuade the reviewers of the institution's capabilities to accomplish the
particular project outlined in the REU proposal. Where PIS from the same department and
institution are submitting competing REU proposals the wording of this material, as well as that

                                                Page 5
describing the research activities, in each proposal must be particularly persuasive for. one or the
other PI to receive REU funding. Among the criteria used to evaluate such proposals is research
performance competence which includes an evaluation of the material in the proposal that
demonstrates the adequacy of the institutional resources.

        OIG concluded that the institutional capabilities description was not "boilerplate," and that
it had direct bearing on the evaluated merit of the proposal. Also, to be "boilerplate," the language
should be used routinely in proposals received from that institution's department. According to the
subject (see below) such boilerplate material did not exist in her department. In this case the copied
material determined by the institution to be "boilerplate" could be considered to be a relatively
standard description of the institution; however, it was u~ q u toe the original author's 1989 proposal
and had been developed by him specifically for that proposal. The original author had not provided
that text to his colleagues for use in their proposals.

        The Student Participant section of the subject's proposal contains two subsections, entitled
"The REU Project Recruitment Plan" and "Student Selection." With the exception of five sentences
all of the text in these subsections, amounting to about a page and a half of text (passages #7 and
#9), was copied from the original author's proposal. In his letter to the Dean, the Chairman
concluded that this was not boilerplate material but instead was "part of the proposed work."
Nonetheless the Chairman concluded that the NSF brochure dictated the REU recruitment
procedures. OIG compared the brochure with the subject's proposal. The brochure describes the
important features of a recruitment plan; it does not dictate or provide text that should be used in
a proposal. The REU Announcement and Guidelines uses phrases such as "proposals should
address . . .", ". . . should provide detailed descriptions . . .", and the research environment
" . . . should be summarized." With regard to the student participants the brochure states that
"student recruitment and selection processes and criteria should be clearly described." The
brochure specifically states that proposals that recruit women, minorities, disabled students, or
students outside the host institution "will receive special consideration" and suggests a REU
proposal targeted at 4-6 students. In addition to the standard review criteria which includes the
effect of the research on the infrastructure of science and engineering, the bmhure lists additional
review criteria. One of these is "the adequacy of procedures for selecting participants, and for
matching selected participants with research supervisors. "

        OIG concluded that the NSF brochure provided guidance on the important topics to be
included in a proposal and emphasized the importance of these topics in NSF's evaluation of the
proposal. OIG concluded, as did the subject (see below), that the brochure did not dictate the
specific language to be used in a REU proposal. The subject's proposal followed the guidance
provided by the brochure but did not contain the same language as the brochure.

        A total of about four pages of text in the subject's proposal is identical or substantially
similar to material in the original author's proposal. Under other circumstances some of this
plagiarized material could have been considered a relatively standard description of the institutional
capabilities; however, a significant portion of the plagiarized material described the student

                                               Page 6
recruitment and selection process--material that NSF would expect to be unique to-each PI'S
proposal. The decision of the Committee implies that it did not consider this a sufficiently serious
case to justify a formal statement of charges because the subject's proposal contained some original
material. OIG does not agree that the presence of original work in a proposal minimizes the
seriousness of the presence of plagiarized material in that proposal.

        If the subject's 1990 proposal had not been withdrawn from considemtion the subject's and
the original author's 1990 proposals would have been in direct competition with each other for the
NSF program's limited resources. Because both proposals contained text from the original author's
1989 proposal, the original author would have in essence competing against himself thereby
reducing his chances of securing NSF funding.


                               THE SUBJECT'S RESPONSE
       On January 11, 1993, OIG contacted the subject and requested her views on the allegation
of plagiarism.

        OIG received the subject's response (attached as Tab E) on January 25, 1993. The subject
stated that her co-PI on the proposal did not write the proposal.

The subject also stated:

       "I did copy or closely paraphrase the materials indicated in your letter   . . . . I did
       not have the permission of [the original author] to do so."

       I did not seek prior permission or acknowledge the materials because at the time I
       regarded them to embody standard materials or classical methods."

With regard to the material considered "boilerplate" by the Chairman, the subject said

       "I was aware of institutions that maintained files of boilerplate information
       concerning facilities, equipment, faculty, and students, and much of the information
       I copied seemed to me to be of that type. Our department did not have a public
       boilerplate file for use by the faculty, but we [emphasis added] had the habit of
       sharing such information."

In the Chairman's letter to the Dean (Tab A) he said that his colleagues had

       "borrowed proposals from their [emphasis added] colleagues and adapted materials
       . . . . I borrowed proposals from m~ [emphasis added] colleagues for consultation
       in preparing my own . . . "


                                              Page 7
Both of these statements kdicate that the sharing of such information was a collegial, dlaborative
effort, where an original author was directly asked for permission to use the original author's
material in another's proposal. In the current case the subject did not ask the original author if he
would share information from his proposal with her. He was unaware that his proposal was being
"shared" with other faculty. The subject stated that

       ".. . as a result of this incident, our current chair and his staff do not =lease   any
       documents from their files without the permission of the author."

With regard to the recruitment and selection sections, the subject said

       "The section of the proposal on mruitment procedures is unique to the REU
       program and so would not be a standard part of most proposals. However, I looked
       at the recruitment procedures described by [the original author] as classical methods
       of good recruitment . . . . I did not perceive them as unique procedures devised by
       him, but as a series of steps that would be used for student selection in many
       academic settings. "

With regard to the NSF brochure, the subject said

       "The relevant NSF brochure on the REU program did not dictate the text to be used
       in the proposal. It did explicitly indicate . . . the main headings to be included and
       what material should be included under them . . . ."

In summarizing her response the subject said

       ". . . I thought of the sections copied to be standard descriptions and methods since
       they were not part of the REU research projects proposed to be carried out by the
       students . . . . I still see them as rather stereotyped supporting materials. However,
       I should have given attribution or obtained [the original author's] permission even
       for factual materials and normal methods, if the original source was [the original
       author's] grant applications. "

The subject attributed her copying to "being naive about Fer] responsibilities." In the Chairman's
December 1990 letter to the Dean (Tab A) he had also attributed her error to naivete.




                                               Page 8
           OIG'S FINDINGS BASED ON THE SUBJECT'S RESPONSE .'
    The subjkt's 1990 NSF proposal contained 12 passages amounting to about four pages of text
copied from the original author's funded 1989 NSF proposal. The subject's 1990 proposal was
withdrawn during the institution's inquiry into the allegation of plagiarism. The subject did not
obtain the original author's permission to use his material and did not indicate, by citation and
indentation or quotation marks, the material from the original author's 1989 proposal that was used
in the subject's 1990 proposal. The subject did not provide an acknowledgment to the original
author in her 1990 proposal.

        OIG found that the passages copied by the subject which included both a description of the
institution's capabilities and the student recruitment and seIection process were important and
integral parts of the proposal. Each element of an REU proposal is carefully evaluated in a funding
decision and several elements of the proposal were plagiarized. The copied text cannot be
considered boilerplate or dictated by the NSF brochure, when by the subject's own admission such
boilerplate material did not exist in her department and the brochure did not dictate proposal text.

        OIG was concerned that, in a proposal which is, in part, written to emphasize the unique
capabilities of the institution and the particular recruitment plan, the subject's response indicates
that she still does not view the original author's text and ideas as uniquely his. In this particular
case, if the subject had not withdrawn her proposal it would have been in direct competition with
the original author's 1990 proposal. Both the subject's and the original author's 1990 proposals
contained text derived from the original author's 1989 proposal. In essence the original author
would have been competing, in part, against himself. Although the subject's 1990 proposal was
withdrawn prior to evaluation, the original author's 1990 proposal was funded.

       The subject submitted a rewritten p r o p o s a l October 1991. That proposal,
the subject's 1991 proposal, was funded. The proposal did not contain material that was plagiarized
from the original author's proposals.


                      CONCLUSION AND RECOMMENDATION
       It is considered plagiarism to use the words or ideas of another person without permission
and attribution even if the copied material is a description of common facilities or faculty. In
deciding whether plagiarism occurred, the presence of unattributed copied material in a work is not
mitigated by the presence of original text in that same work. Therefore, we recommend that the
Deputy Director of NSF find that the subject has committed misconduct, and specif~cally
plagiarism, under NSF's definition of misconduct in science and engineering. A letter describing
the findings and the final administrative actions taken by NSF should be sent to the subject with
copies to the current department Chairman, the Dean, the Committee, and the institution's
Authorized Institutional Representative (AIR).


                                               Page 9
        OIG found that the subject copied about four pages of text from the original author's
proposal into her submitted proposal without obtaining his permission, and that she did-not offset
the copied text by indentation or quotation marks or provide a citation by each block of text to the
original author's work. The subject's proposal did not contain an acknowledgement to the original
author. OIG found that the subjects addressed in the copied material were important to determining
the merit of the proposal, and their importance was highlighted by their inclusion as a review
criteria.

         In v g n i t i o n of what the institution has labeled a "technical error" committed by the
subject, the institution placed a copy of the Chairman's letter to the Dean in the subject's personnel
file at the institution. However, when imposing that sanction the institution ignored the fact that
a ~ i ~ c apart  n t of the plagiarized text was material it determined to be part of the "proposed
work," material that described the student recruitment and selection p m s s and that NSF expected
was unique to the subject's proposal. After further institutional review, that sanction was
considered appropriate, in part, because original work by the subject also appeared in her proposal.

        Of her own volition the subject withdrew her 1990 proposal from consideration. During
the summer of 1992, in connection with her funded 1991 proposal, she joined with two other REU
site grant PIS at the institution in providing a series of seminars entitled "Ethical Issues in the
Conduct of Research." OIG feels that the presence of the letter containing the Chairman's findings
in the subject's personnel file and her remedial efforts constitute part of the appropriate
administrative action that should be taken in this case.

        NSF funds proposals that promote and advance progress in science and engineering,
fundamental to that is the expectation that these proposals represent unique and original work.
NSF's funding decisions rely, in part, on the expectation that PISadhere to the generally understood
tenet that proposals represent the original work of the PI and that appropriate credit and
acknowledgements are given to the work of others. OIG believes that the subject's failure to
observe this tenet breaks a trust with NSF. To reestablish that trust the subject should, for a period
of three years, accompany any proposal submitted to NSF with a certification to OIG of her present
responsibility and her understanding of that tenet. The institution, as a steward of ethical conduct
in science, should accompany each certification with its own certif~cationthat the proposal
appropriately acknowledges all original sources of information.

       Given the circumstances of this case, OIG feels that the government's interest will be
adequately protected if the following actions are taken:

(la)   If, prior to September 1996, the subject is a principal investigator or co-principal
       investigator on a proposal submitted to NSF for funding, t h e Authorized
       Institutional Representative (AIR) will ensure that the subject's department Chairman
       has signed an Assurance stating that, on the basis of the Chairman's reading of the
       proposal, the proposal does not, to the best of the Chairman's knowledge, contain
       any plagiarized material.

                                               Page 10
                                                                                      I
  b)   If, prior to Septeaber 1996, the subject is a principal investigator or a co-principal
       investigator on a proposal submitted to NSF for funding, the PI will certify-in
       writing that she has recently reviewed her institution's guidelines on misconduct in
       science, and that, to the best of her knowledge, her grant application is free of any
       such misconduct, and that her grant application has been reviewed as described
       above.

(lc)   The Chairman's Assurance and the PI'S Certiflcation will be sent to the Assistant
       Inspector General for Oversight in NSF's Office of Inspector General, to be placed
       in that office's file on this matter.

(2)    The subject will send a letter of apology to the original author by certified mail with
       a request for a return receipt. A copy of that letter along with the certified mail
       receipt will be forwarded to the Assistant Inspector General for Oversight in NSF's
       Office of Inspector General, to be placed in that office's fde on this matter.


          OIG sent a draft of this report to the subject with a request for comments. In an August
18, 1993 letter (Tab F) the subject accepted the fmdings of the report without comment, offered
to "carry out the recommendations in . . . [the] report," but requested that the proposed Chairman's
certification be q u f i e d by the language, "on the basis of the Chairman's reading of the proposal,
the proposal does not, to the best of the Chairman's knowledge, contain any plagiarized material. "
OIG has revised action (la) above to contain that language.




                                              Page 11
